       REVALUATION OF INVENTORY FOR THE FY 1999
       DEPARTMENT OF THE NAVY WORKING CAPITAL
             FUND FINANCIAL STATEMENTS

Report No. D-2000-177                     August 18, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD, Home Page at: www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CDB                   Central Data Base
COGS                  Cost of Goods Sold
CSIS                  Central Secondary Item Stratification
DFAS                  Defense Finance and Accounting Service
NAS                   Naval Audit Service
NAVSUP                Naval Supply Systems Command
USD(Comptroller)      Under Secretary of Defense (Comptroller)
                         Office of the Inspector General, DoD
Report No. D-2000-177                                                    August 18, 2000
   (Project No. D2000FC-0045.002)


        Revaluation of Inventory for the FY 1999 Department of the
            Navy Working Capital Fund Financial Statements

                                    Executive Summary

Introduction. This report is the fourth in a series of reports on the FY 1999 Department
of the Navy (Navy) Working Capital Fund financial statements. We performed this audit
in response to the Chief Financial Officers Act of 1990, as amended by the Federal
Financial Management Act of 1994, which requires DoD to provide audited financial
statements to the Office of Management and Budget. The FY 1999 Navy Working Capital
Fund financial statements reported total assets of $23.4 billion and total liabilities of
$5.5 billion. Net program costs for the Navy Working Capital Fund were $710.9 million.
Inventory is the most significant asset of the Navy Working Capital Fund and comprised
$15.2 billion, or about 67 percent of the reported assets.

Objectives. Our objectives were to determine whether the revaluation of inventory from
standard price to an estimation of historical cost was reasonable, and to evaluate the
processes and procedures that the Naval Supply Systems Command and the Defense
Finance and Accounting Service (DFAS) used to revalue inventory. We also reviewed
management controls and compliance with laws and regulations as they related to the audit
objective. See Appendix A for a discussion of the audit process.

Results. Calculations in the Cost of Goods Sold model that DFAS used since 1995 did not
follow Federal accounting standards or DoD guidance for the presentation and disclosure
of inventory in the FY 1999 Navy Working Capital Fund financial statements. As a result,
the Inventory, Net, balance, as reported in the financial statements in Note 8.A. was
overstated by $1.6 billion, and disclosures about inventory in Note 8.A. of the financial
statements were significantly distorted (finding A).

Cost of Goods Sold model calculations to realize holding gains and losses on sales of
depot-level reparables were inappropriate. As a result, we were not able to verify the
reasonableness of holding gains and losses realized during FY 1999. Therefore, the
Inventory, Net, balance was understated by an undeterminable amount (finding B).

Journal entries that the Naval Supply Systems Command recorded in the DFAS Central
Data Base to revalue inventory from standard price to latest acquisition cost or net
realizable value were erroneous. As a result, the estimated cost to repair unserviceable
inventory was understated by approximately $209.7 million, and the latest acquisition cost
for in-transit inventory was overstated by $81.6 million. In addition, supplemental
information that the Naval Supply Systems Command provided to DFAS Cleveland Center
for disclosure of war reserve material excluded certain military contingency stocks. As a
result, the disclosure about war reserve material was understated by $67.7 million
(finding C).
Summary of Recommendations. We recommend that the Under Secretary of Defense
(Comptroller) and the Director, DFAS, modify the Cost of Goods Sold model
computations to comply with DoD Regulation 7000.14-R and issue guidance to recognize
revenue for all reparable exchange price sales based at the standard price.

We recommend that the Director, DFAS, modify calculations of the potential loss related
to excess, obsolete, and unserviceable inventory. We further recommend that DFAS
modify procedures for using the Cost of Goods Sold model to restate inventory at standard
price at the beginning of the accounting period; correctly reclassify appropriate inventory
as inventory held for future sale or repair; accurately allocate cost recovery elements
between inventory categories; and record the necessary prior period adjustments to
correctly restate inventory as of the end of FY 1999.

We recommend that the Commander, Naval Supply Systems Command, and the Director,
DFAS, establish procedures for the Naval Supply Systems Command to provide DFAS
with the additional information needed for accurate disclosures about inventory held in
reserve for future sale. We further recommend that the Commander, Naval Supply
Systems Command, modify the revaluation spreadsheets to accurately calculate the
estimated cost to repair unserviceable inventory, accurately classify the estimated cost to
repair unserviceable inventory in-transit from customers, correctly calculate the cost of all
war reserve material for footnote disclosure, and establish controls to detect clerical errors
made during manual entry of data.

Management Comments. The Under Secretary of Defense (Comptroller) proposed
alternative actions to overcome the limitations of the latest acquisition cost method. His
office will evaluate options for bringing inventory accounting into full compliance with the
Federal accounting standards. In subsequent discussions with Comptroller staff, they
emphasized their desire to move toward the historical cost method for presentation of
inventory in the financial statements.

The Navy concurred with the recommendations and stated that the Naval Supply Systems
Command modified inventory revaluation spreadsheets as recommended to calculate
information needed for disclosure of inventory held in reserve for future sale, correctly
calculate the estimated cost of repair for unserviceable inventory, calculate and disclose
war reserves, and provide check totals to reduce manual errors.

DFAS deferred to the Under Secretary of Defense (Comptroller) all recommendations on
computations in the Cost of Goods Sold model and stated that it will implement the model
as directed. The Director concurred with the recommendations to reclassify economic
retention stock, contingency retention stock, and war reserve material as inventory held for
future sale and to reclassify all unserviceable stock as held for repair. See the findings for
a complete discussion of management comments and the Management Comments section
for the complete text of the comments.

Audit Response. The alternative actions proposed by the Under Secretary of Defense
(Comptroller) and subsequent discussions with Comptroller staff represent a long-term
proposal to use the historical cost method for the financial presentation of Inventory, Net.
We support this significant change in policy and believe it will be in the best interest of
DoD. We will continue to monitor and evaluate the value and presentation of inventory in
the Navy Working Capital Fund financial statements to identify any major problems in the
current process, and assist in the transition to historical cost. However, it will be several
years until the necessary changes are implemented for the historical cost method. Thus,
presentation and disclosures about inventory in the financial statements will not be reliable
for years.
                                              ii
Table of Contents

Executive Summary                                                              i


Introduction
     Background                                                                1
     Objectives                                                                2

Findings
     A. Cost of Goods Sold Model                                               3
     B. Revenue Recognition and Realization of Holding Gains and Losses       11
     C. Calculations Affecting the Presentation and Disclosure of Inventory   15


Appendixes
     A. Audit Process
         Scope                                                                18
         Methodology                                                          19
         Management Control Program                                           20
         Prior Coverage                                                       20
     B. Report Distribution                                                   22

Management Comments
     Under Secretary of Defense (Comptroller)                                 25
     Department of the Navy                                                   28
     Defense Finance and Accounting Service                                   32
Background
         The audit was performed as part of our effort to meet the requirements of Public
         Law 101-576, the “Chief Financial Officers Act of 1990,” November 15, 1990, as
         amended by Public Law 103-356, the “Federal Financial Management Act of
         1994,” October 13, 1994. This report is the fourth in a series of Inspector
         General, DoD, reports on the FY 1999 financial statements for the Department of
         the Navy (Navy) Working Capital Fund. See Appendix A for the other three
         reports.

         Navy Working Capital Fund. The Navy Working Capital Fund finances nine
         primary activity groups, which provide support to the Navy and other authorized
         customers. The largest activity group is the Supply Management activity group,
         which includes Supply Management (Navy) and Supply Management (Marine
         Corps). This audit did not include a review of the Marine Corps portion of
         reported inventory. The Supply Management activity group reported an
         Inventory and Related Property, Net, balance of $15.8 billion, of which
         $15.2 billion was Inventory, Net.1 Inventory, Net, represented about 67 percent
         of Navy Working Capital Fund assets.

         Naval Supply Systems Command. The Navy Supply Systems Command
         (NAVSUP) manages inventories for the Navy portion of the Navy Working
         Capital Fund. The Navy Inventory Control Point and field organizations maintain
         logistical records supporting the general ledger account balances in the Central
         Data Base (CDB). Each month, the NAVSUP computes and records adjustments
         in the CDB to revalue inventory from standard price to latest acquisition cost, to
         reduce the value of unserviceable inventory by the estimated cost to repair the
         inventory, and to revalue potential excess inventory to net realizable value.

         Defense Finance and Accounting Service. The Defense Finance and
         Accounting Service (DFAS) serves as the accountant for the Navy Working
         Capital Fund. The DFAS Cleveland Center receives financial information in
         various forms from Navy Supply Management activity group organizations and
         records the data into the CDB accounting system. The annual financial statement
         for the Supply Management activity group is included in the Navy Working
         Capital Fund financial statements, which are included in the DoD Agency-Wide
         financial statements.


Policy for Valuation of Inventory
         Federal Government Accounting Policy. Statement of Federal Financial
         Accounting Standards No. 3, “Accounting for Inventory and Related Property,”
         October 27, 1993, established the policy on inventory valuation for Federal
         Government entities. Accounting Standard No. 3 states that inventory should be
         valued at latest acquisition cost or historical cost, except for excess, obsolete, and
1
 “Inventory, Net” is the term used in the financial statements in Note 8.A. that refers to inventory amounts
 in various categories after adding or deducting allowable gains or losses.



                                                      1
     unserviceable inventory and inventory held for repair, which should be valued at
     net realizable value. Accounting Standard No. 3 provides two methods for
     valuing inventory held for repair: the allowance method and the direct method.
     The Navy Working Capital Fund uses the allowance method. Accounting
     Standard No. 3 states the following:
                Under the allowance method, inventory held for repair shall be valued
                at the same value as a serviceable item, however, an allowance for
                repairs contra-asset account shall be established. The annual credits
                required to bring the repair allowance to the current estimated cost of
                repairs shall be recognized as current period operating expenses. As
                the repairs are made the cost of repairs shall be charged (debited) to the
                allowance for repairs account.

     DoD Accounting Policy. DoD Regulation 7000.14-R, “DoD Financial
     Management Regulation,” volume 11B, chapter 55, “Supply Management
     Operations,” December 1994, establishes the accounting policy for DoD
     Components to use in reporting inventory balances on their financial statements.
     DoD Regulation 7000.14-R provides that except for excess, obsolete, and beyond-
     economical-repair inventory, inventory should be valued at its latest acquisition
     cost, applying the last representative procurement price to all like items. Excess,
     obsolete, and beyond-economical-repair inventory should be valued at net
     realizable value. Net realizable value is the current salvage rate, expressed as a
     percentage of latest acquisition cost. The salvage rate is developed by the Deputy
     Under Secretary of Defense (Logistics) based on data derived from the Defense
     Reutilization and Marketing Service.


Objectives
     The overall audit objectives were to determine whether the revaluation of
     inventory from standard price to an estimation of historical cost was reasonable
     and to evaluate the processes and procedures that NAVSUP and DFAS used to
     revalue inventory. We limited our review to the revaluation of inventory because
     Navy Working Capital Fund management had not executed management control
     tests of inventory record accuracy and completeness required for management
     assertions concerning inventory amounts reported in the financial statements. We
     also reviewed management controls and compliance with laws and regulations
     related to those objectives. Appendix A discusses the audit scope and
     methodology and our review of the management control program.




                                               2
          A. Cost of Goods Sold Model
          Calculations in the Cost of Goods Sold (COGS) model did not follow
          Federal accounting standards or DoD guidance for the presentation and
          disclosure of inventory in the FY 1999 Navy Working Capital Fund
          financial statements. The calculations did not follow standards or
          guidance because computations in the model that the Under Secretary of
          Defense (Comptroller) and DFAS designed were incorrect, and because
          DFAS Cleveland Center operational guidance for executing the model was
          inappropriate or used incomplete information. As a result, the Inventory,
          Net, balance reported in the FY 1999 Navy Working Capital Fund
          financial statements was overstated by $1.6 billion, and the disclosures
          about inventory in Note 8.A. of the financial statements were significantly
          distorted.


COGS Model
   Navy Working Capital Fund logistical and accounting systems record inventory
   transactions and account for inventory at standard price. Because those logistical
   and accounting systems cannot value inventory at historical cost or latest
   acquisition cost, in compliance with Statement of Federal Financial Accounting
   Standards No. 3, the Under Secretary of Defense (Comptroller)
   (USD[Comptroller]) and DFAS developed a COGS model, which has been used
   since FY 1995. The process to revalue inventory from standard price to an
   estimation of historical cost for financial reporting is complex and involves
   computations by both NAVSUP and DFAS Cleveland Center. The COGS model
   is a series of excel spreadsheets to revalue inventory from standard price to
   historical cost, calculate cost of goods sold for the period, and produce
   information required for the disclosures in the financial statements about
   inventory. The post-closing trial balance from the COGS model was used for the
   preparation of the FY 1999 Navy Working Capital Fund financial statements.
   The revaluation of inventory was accomplished by recording 20 journal entries to
   the COGS model trial balance for the Navy Supply Management activity group.
   Those journal entries included the following types of adjustments:

          •   reversing entries to restate inventory to standard price at the beginning
              of FY 1999;

          •   adjusting entries to realize holding gains and losses related to
              inventory sales, disposals, and transfers; to reclassify inventory into
              categories for disclosure purposes; and to revalue inventory from
              standard price to latest acquisition cost or net realizable value at the
              end of FY 1999; and

          •   closing entries to close the accounting records at the end of the period.




                                         3
Followup on Naval Audit Service Work
     Naval Audit Service (NAS) Report No. N2000-0014, “Department of the Navy
     Working Capital Fund Inventory Records and Valuation,” December 30, 1999,
     reports that the COGS model used for the FY 1998 financial statements contained
     errors, used inappropriate accounts, and used outdated inventory stratification
     data. The report identifies erroneous data used in the model, policy issues
     requiring guidance from the USD(Comptroller) and DFAS, and deficiencies in the
     design and execution of the model that caused misstatements of the Inventory,
     Net, balance. The NAS recommended numerous actions to improve inventory
     valuation, including recommendations to modify the design and execution of the
     COGS model to implement the requirements of Statement of Federal Financial
     Accounting Standards No. 3.

     DFAS Cleveland Center did not implement the recommendations to modify the
     COGS model because its personnel interpreted correspondence from DFAS
     Headquarters to prohibit any modification to the model before the
     USD(Comptroller) issued revised guidance.


Computations of Potential Loss Related to Excess, Obsolete,
and Unserviceable Inventory
     Computations in the COGS model, which the USD(Comptroller) and DFAS
     designed, incorrectly calculated information used for the journal entries to
     recognize the potential loss related to excess, obsolete, and unserviceable material
     and the value of inventory at latest acquisition cost. DoD Regulation 7000.14-R,
     volume 11B, chapter 55, provides that the difference between the standard price
     and net realizable value of excess, obsolete, and unserviceable material should be
     recognized as a loss in the accounting period. The regulation also provides that
     the value of inventory held for sale, inventory held in reserve for future sale, and
     inventory held for repair should be adjusted to latest acquisition cost.

     The computations in the COGS model of the potential loss related to excess,
     obsolete, and unserviceable material calculated the loss as the difference between
     the latest acquisition cost of the material and its net realizable value instead of the
     difference between standard price and net realizable value. That calculation
     understated the potential loss by the difference between the standard price and
     latest acquisition cost of the material. As a result, inventory reported in the
     FY 1999 Navy Working Capital Fund financial statements was overstated, and
     program costs were understated.


Operational Procedures for Execution of the COGS Model
     DFAS Cleveland Center's operational procedures for execution of the model,
     “Draft Reporting Procedures for Using the COGS Model,” did not provide for



                                            4
proper inventory revaluation. The operational procedures provided guidance for
calculating and recording journal entries in the COGS model. The guidance
caused erroneous journal entries to do the following:

       •    restate inventory at standard price at the beginning of FY 1999,

       •    reclassify inventory as held in reserve for future sale and held for
            repair, and

       •    allocate cost recovery elements between inventory categories.

Restating Inventory at Standard Price. NAS Report No. N2000-0014 reports
that the guidance for the reversing entry was erroneous. However, DFAS
Cleveland Center did not modify the guidance for executing the model and did
not process accounting adjustments to correct the erroneous COGS account
balances at the beginning of FY 1999. Not processing the correct adjustments
caused a significant imbalance between the inventory account balances in the
COGS model and the CDB general ledger account balances. To correct the
misstatement at the beginning of FY 1999, DFAS Cleveland Center should have
recorded the prior period adjustment in the COGS model to restate the inventory
account balances shown in Table 1.


                 Table 1. Prior Period Adjustment to COGS Model
                            at the Beginning of FY 1999

           General Ledger Account                   Debit Amount         Credit Amount

 Inventory held in reserve for future sale         $     9,489,070

 Excess, obsolete, and unserviceable                    22,166,889
 inventory
 Allowance for holding gains and losses             6,542,125,137

 Cumulative results of operations                      420,791,373

        Inventory held for sale                                          $ 732,005,400

        Inventory held for repair                                         6,262,567,069



Failure to record the adjustment exacerbated the misstatement of Inventory, Net,
and the cost of goods sold in FY 1999. DFAS Cleveland Center needs to make an
additional adjustment to COGS model account balances identified in Table 2 to
bring the COGS model into agreement with the CDB general ledger accounts at
the end of FY 1999.




                                      5
            Table 2. Adjustment to COGS Model Account Balances
                            at the End of FY 1999

        General Ledger Account                 Debit Amount        Credit Amount

Inventory held for sale                      $ 1,013,277,320

Inventory held in reserve for future sale           9,489,070

Allowance for holding gains and losses         3,014,953,590

Cumulative results of operations                 691,888,856

       Excess, obsolete, and                                       $ 23,784,514
unserviceable inventory

       Inventory held for repair                                   4,705,824,322



To restate Inventory, Net, correctly for the FY 2000 financial statements, DFAS
should make both adjustments shown in Tables 1 and 2.

Reclassification of Inventory as Held in Reserve for Future Sale and Held for
Repair. The CDB does not account for inventory as held in reserve for future
sale or inventory held for repair. To overcome that limitation, the COGS model
includes journal entries to reclassify inventory to those categories. However,
DFAS Cleveland Center’s operational procedures caused it to use incomplete
information.

        Inventory Held in Reserve for Future Sale. DoD Regulation
7000.14-R, volume 11B, chapter 55, provides that inventory held in reserve for
future sale should include the value of inventory stratified as economic retention
stock and contingency retention stock. NAS Report No. N2000-0014 reports that
NAVSUP and DFAS Cleveland Center did not establish procedures to ensure that
DFAS Cleveland Center received accurate information to reclassify economic and
contingency retention stock as inventory held in reserve for future sale.

NAVSUP calculated the value of economic and contingency retention stock using
information from the March 31, 1999, Central Secondary Item Stratification.
Although the information needed for disclosure about inventory held in reserve
for future sale was readily available from the NAVSUP Central Secondary Item
Stratification, DFAS Cleveland Center did not request and NAVSUP did not
provide the necessary information at the end of FY 1999. In addition, finding C
of this report discusses how NAVSUP did not provide accurate or complete data
for the reclassification of war reserve stocks as inventory held in reserve for
future sale.

       Inventory Held for Repair. DoD Regulation 7000.14-R, volume 11B,
chapter 55 provides that inventory held for repair should include the value of
material in unserviceable condition (condition codes F, G, M, Q, and R). Navy


                                     6
         logistics systems report condition code changes to the accounting system.
         However, the CDB did not maintain general ledger accounts to capture inventory
         values for each condition code. The CDB maintains general ledger accounts for
         inventory on-hand and inventory inducted to repair. The CDB correctly classifies
         inventory inducted to repair (condition code M) as inventory held for repair. In
         addition to the general ledger data, the logistics systems aggregate and report
         values for serviceable material and categories of unserviceable material using
         database codes. Database code “90611” represents the value of serviceable
         material, database code “90613” represents the value of unserviceable material
         awaiting parts (condition code G), and database code “90612” represents the
         value of all other unserviceable material (condition codes F, Q, and R).

         DFAS Cleveland Center's operational procedures specify that information
         recorded for database code 90612 be used to reclassify inventory from held for
         sale to held for repair. Execution of the procedures resulted in incomplete
         reclassification of inventory from held for sale to held for repair because DFAS
         did not include the value recorded for database code 90613 (unserviceable
         material awaiting parts) in the entry to reclassify inventory as held for repair. On
         September 30, 1999, the Navy held $754 million of condition code G material.
         Exclusion of the condition code G material caused inventory held for sale to be
         overstated and inventory held for repair to be understated.

         Allocation of Cost Recovery Elements Between Inventory Categories. NAS
         Report No. N2000-0014 reports that the DFAS Cleveland Center operational
         procedures for executing the COGS model incorrectly calculated the allocation of
         cost recovery elements between inventory categories. Journal entries recorded in
         the COGS model to allocate the potential loss on excess, obsolete, and
         unserviceable inventory and the reduction from standard price to latest acquisition
         cost erroneously allocated reductions to inventory held for sale instead of
         inventory held for repair.

         Other Information and Calculations Affecting Presentation and Disclosures
         About Inventory. Finding C of this report discusses erroneous calculations of
         accounting adjustments that NAVSUP recorded in the CDB. Those accounting
         adjustments caused Inventory, Net to be overstated by $209.7 million.

         Inspector General, DoD, Report No. D-2000-140, “Compilation of the FY 1999
         Department of the Navy Working Capital Fund Financial Statements,”
         June 7, 2000, reports that Inventory, Net was overstated by $44.9 million because
         the DFAS Cleveland Center and Navy Working Capital Fund organizations did
         not reconcile general ledger account balances in the CDB with financial inventory
         control ledgers that field organizations maintained and because CDB general
         ledger account balances were erroneously classified as inventory. The report also
         indicates that inventory may be overstated by as much as $445.4 million2 because
         the CDB general ledger account for inventory in-transit from customers was not
         reconciled to supporting records.


2
 In response to the report, DFAS agreed that inventory was overstated by $436.3 million because residual
 balances were not cleared. DFAS indicated that an accounting entry would be made in FY 2000 to
 eliminate the residual balances.



                                                    7
Summary
      Table 3 compares the value of inventory, at latest acquisition cost, calculated in
      the COGS model with the value as adjusted for corrections discussed in this
      finding.


        Table 3. Comparison of Inventory and Related Accounts Computed
               in the COGS Model With Values Computed by Audit
                              (dollars in thousands)

            Inventory Category            Computed by       Computed by
                                          COGS Model           Audit          Difference

 Held for Sale                             $13,766,395        $8,533,963      $5,232,432

 Held in Reserve for Future Sale                 85,335        1,766,458      (1,681,123)

 Held for Repair                               8,843,378       8,748,304          95,074

 Excess, Obsolete, and Unserviceable            130,960         107,176           23,784

    Subtotal of inventory at latest         22,826,068        19,155,901       3,670,167
      acquisition cost

 Allowance for holding gains and losses     (9,192,328)       (7,138,648)     (2,053,680)

    Inventory, Net                         $13,633,740       $12,017,253      $1,616,487



      Correctable errors in the design of calculations in the COGS model and errors in
      DFAS Cleveland Center’s procedures for executing the model caused Inventory,
      Net, to be overstated by $1.6 billion. Inventory, Net, will continue to be misstated
      until the USD(Comptroller) issues revised policy for computing inventory and
      until policy changes are implemented. The USD(Comptroller) needs to direct the
      correction of COGS model calculations for excess, obsolete, and unserviceable
      material and for inventory at latest acquisition cost, and DFAS Cleveland Center
      needs to revise operational procedures for executing the model.


Recommendations, Management Comments, and Audit
Response
      A.1. We recommend that the Under Secretary of Defense (Comptroller) and
      the Director, Defense Finance and Accounting Service, modify the
      computations of the potential loss for excess, obsolete, and unserviceable
      inventory and the value of inventory at latest acquisition cost adjustment to
      comply with chapter 55, volume 11B, DoD Regulation 7000.14-R.


                                           8
USD(Comptroller) Comments. The USD(Comptroller) proposed alternative
actions to overcome the limitations of the latest acquisition cost method. The
USD(Comptroller) proposes to concentrate on evaluating the policy and systems
changes that would be required to implement and support a latest acquisition cost
valuation method and a direct cost historical valuation method. In subsequent
conversations with USD(Comptroller) personnel, they emphasized their desire to
move toward the historical cost method for the financial presentation of inventory
in financial statements for DoD organizations. In addition, the USD(Comptroller)
requested the audit community’s assistance in identifying the minimum changes
recommended to improve financial presentation of inventory using the latest
acquisition cost method.

DFAS Comments. DFAS concurred with the intent and theory of the
recommendation. However, DFAS stated that the Accounting Policy Directorate
in USD(Comptroller) is responsible for providing adequate documentation and
guidance for the COGS model to ensure it is consistent with DoD
Regulation 7000.14-R, including guidance for valuing excess, obsolete, and
unserviceable inventory.

Audit Response. The alternative actions proposed by the USD(Comptroller) and
subsequent discussions with Comptroller staff represent a long-term proposal to
use the historical cost method for the financial presentation of Inventory, Net. We
support this significant change in policy and believe it will be in the best interest
of DoD. The latest acquisition cost method currently used by DoD is extremely
complicated, contains numerous deficiencies, and is simply not practical. Based
on the proposed change in direction by the USD(Comptroller), we will continue
to monitor and evaluate the value and presentation of inventory in the Navy
Working Capital Fund financial statements to identify any major problems in the
current process, and assist in the transition to historical cost. However, it will be
years until the necessary policy and systems changes are implemented for the
historical cost method. As a result, the presentation and disclosures about
inventory in the financial statements will not be reliable for years.

Policy and system changes needed to improve the presentation and disclosures
related to inventory for the Navy Working Capital Fund are contained in this
report and NAS Report No. N2000-0014. Auditors from the Inspector General,
DoD; NAS; and the General Accounting Office will continue to participate with
the Navy Logistics Working Group to identify accounting system changes needed
to capture financial information at the transaction level and improve presentation
and disclosures.

A.2. We recommend that the Director, Defense Finance and Accounting
Service, modify operational procedures for executing the Cost of Goods Sold
model to:

        a. Restate inventory at standard price at the beginning of the fiscal
year.

       b. Classify economic retention stock, contingency retention stock, and
war reserve material as inventory held for future sale.

        c. Classify material in G condition code as inventory held for repair.


                                      9
        d. Use correct allocations in journal entries to recognize the potential
loss on excess, obsolete, and unserviceable inventory and to reduce inventory
from standard price to latest acquisition cost between the inventory
categories.

DFAS Comments. DFAS deferred to the USD(Comptroller) for
Recommendations 2.a. and d. on computations in the Cost of Goods Sold model,
stating that it will implement the model as directed. DFAS concurred with
Recommendations 2.b. and c. and agreed by September 2000 to reclassify
economic retention stock, contingency retention stock, and war reserve material
as inventory held for future sale and to reclassify condition code G stock as held
for repair.

A.3. We recommend that the Director, Defense Finance and Accounting
Service, calculate and record the prior period adjustment to restate
inventory at the end of FY 1999. The adjustment is needed to correct
misstatements that have occurred since FY 1995 because of erroneous
calculations and to eliminate imbalances between the Cost of Goods Sold
model and the Central Data Base identified in Tables 1 and 2 of this report.

DFAS Comments. DFAS deferred to the USD(Comptroller) for all
recommendations on computations in the Cost of Goods Sold model, stating that
it will implement the model as directed.

A.4. We recommend that the Commander, Naval Supply Systems
Command, and the Director, Defense Finance and Accounting Service,
establish procedures for the Naval Supply Systems Command to provide the
Defense Finance and Accounting Service with the additional information
needed for accurate disclosure of inventory held in reserve for future sale.

Navy Comments. NAVSUP concurred and stated that it established control
procedures in coordination with DFAS Cleveland Center to direct all requests for
necessary information to a specific department in NAVSUP.

DFAS Comments. DFAS concurred, and DFAS Cleveland Center will work
with NAVSUP to establish procedures to ensure that NAVSUP provides DFAS
with the additional information needed for accurate reporting of inventory held in
reserve for future sale. DFAS planned to complete the corrective actions by
September 2000.




                                    10
                  B. Revenue Recognition and Realization
                     of Holding Gains and Losses
                  Cost of Goods Sold (COGS) model calculations to realize holding gains
                  and losses on sales of depot-level reparables were inappropriate. The
                  calculations were inappropriate because they incorrectly assumed that the
                  sales price for depot-level reparable items was always standard price.
                  However, approximately 37 percent of the revenue for the Navy Working
                  Capital Fund was recognized at the exchange price.3 As a result, we were
                  not able to verify the reasonableness of holding gains and losses realized
                  during FY 1999, which caused Inventory, Net, to be understated by an
                  undeterminable amount.


Inventory Reporting
         Inventory is reported on the financial statements at its latest acquisition cost less
         the allowance for unrealized gains and losses so that the net of the inventory and
         allowance will yield an approximation of historical cost. Holding gains and losses
         result, in part, from changes in the value of inventory because of increases or
         decreases in the latest acquisition cost during the period that inventory is held. At
         the end of the each fiscal year, the COGS model calculates a ratio of the holding
         gains and losses to inventory at standard price (realization ratio). The realization
         ratio is used in calculations to relieve the allowance for holding gains and losses
         related to inventory that has been sold, transferred to non-Navy Working Capital
         Fund organizations without reimbursement, or otherwise disposed of during the
         fiscal year.


Realization of Holding Gains and Losses on Inventory Sales
         The USD(Comptroller) and DFAS designed the COGS model calculation of the
         realization ratio. That calculation has been used in the COGS model since
         FY 1995. The realization ratio was calculated as holding gains and losses divided
         by inventory available for sale, at standard price. The realization ratio for FY 1999
         (57.7 percent) was applied to Navy Working Capital Fund inventory sales during
         the fiscal year. Based on the calculation, the COGS model realized $3.1 billion of
         holding gains and losses.

         Navy Working Capital Fund Inventory Sales. Navy Working Capital Fund
         inventory sales, however, included sales at standard price, at exchange price, and
         at carcass price (standard price less exchange price). The sales price of a depot-
         level reparable item is dependent on whether the customer returns an unserviceable
         item. Sales of depot-level reparable items made without the return of an
         unserviceable item are priced at the standard price of the item. Sales of depot-level

3
 The exchange price is the estimated repair price plus cost recovery elements billed to the customer as part
 of a sales transaction for a depot-level reparable item when the customer returns an unserviceable asset.



                                                     11
   reparable items for which the customer indicates that an unserviceable item will be
   returned are priced at the exchange price of the item. The difference between the
   standard price and the exchange price approximates the carcass price of the item.
   When a customer does not return the unserviceable item that was expected, the
   customer is also charged the carcass price in addition to the exchange price.

   Table 4 identifies Navy Working Capital Fund inventory sales at standard price,
   exchange price, and carcass price.


    Table 4. Navy Working Capital Fund Revenue From Inventory Sales
                          (dollars in thousands)

    Revenue from Sale of Inventory at Standard Price               $3,343,025

    Revenue from Sale of Inventory at Exchange Price                2,032,551

    Revenue from Sale of Inventory at Carcass Price                    64, 043

       Total                                                       $5,439,619



   Application of the realization ratio to exchange price revenue is inappropriate. The
   realization ratio should only be applied to standard price revenue.

   Estimated Impact of Exchange Price Sales on Holding Gains and Losses. The
   exchange price for a depot-level reparable item approximates the estimated cost to
   repair the item when it is unserviceable plus the cost recovery elements used in the
   standard price calculation, plus cost recovery elements for carcass attrition
   (unserviceable assets that cannot be repaired) and shipping and transportation. The
   average or composite estimated repair costs in the March 31, 1999, Central
   Secondary Item Stratification were 24.7 percent for shipboard depot-level
   reparable items and 16.7 percent for aviation depot-level reparable items. If
   revenue for depot-level reparable exchanges was measured at standard price, the
   total revenue for Navy Working Capital Fund inventory sales would increase from
   $5.4 billion to $15.1 billion. Application of the realization ratio (57.7 percent) to
   the increased revenue would have realized an additional $5.6 billion ($15.1 billion
   less $5.4 billion x 57.7 percent) of holding gains and losses.


Summary
   The application of the realization ratio, based on standard price, to exchange price
   revenue is inappropriate. Application of the realization ratio to exchange price
   sales understated the holding gains and losses that were realized during the fiscal
   year. As a result, the allowance for holding gains and losses was overstated and
   Inventory, Net, was understated.

   We do not believe that the calculation of a separate realization rate for exchange
   price sales is feasible or desirable. Instead, the Navy Working Capital Fund should


                                        12
    recognize noncash revenue equal to the carcass value of assets returned as part of
    the exchange. Under that approach, all revenue would be recognized at standard
    price.

    A reasonable and supportable estimate of the historical cost of Navy Working
    Capital Fund inventory is not currently available. Such an estimate would not be
    available until the USD(Comptroller) issues guidance for the revenue recognition
    and realization of holding gains and losses on depot-level reparable exchange price
    sales, and until the Navy Working Capital Fund and DFAS calculate the ending
    balance of the allowance for holding gains and losses at the end of FY 1999. The
    calculation would involve the recalculation of holding gains and losses realized
    between FY 1995 and FY 1999 and would result in a prior period adjustment to
    restate Inventory, Net.


Recommendations, Management Comments, and Audit
Response
    Revised Recommendation. As a result of management comments, we revised
    draft Recommendation B.2. to indicate that DFAS was primarily responsible for
    recalculating the ending balance of the allowance for holding gains and losses, but
    that NAVSUP would have to provide assistance.

    B.1. We recommend that the Under Secretary of Defense (Comptroller)
    develop supplemental guidance on revenue recognition for depot-level
    reparable exchange price sales. The guidance should prescribe recognition of
    noncash revenue equal to the carcass value of unserviceable assets returned as
    part of the exchange transaction. (The change would result in all revenue
    being recognized at standard price.) The guidance should also direct the
    related changes in the design of the Cost of Goods Sold model for the Navy
    Working Capital Fund.

    Management Comments. The USD(Comptroller) proposed alternative actions to
    overcome the limitations of the latest acquisition cost method, specifically, to
    concentrate on evaluating the policy and systems changes that would be required
    to implement and support a latest acquisition cost valuation method and a direct
    historical cost valuation method. USD(Comptroller) personnel in subsequent
    conversations also stated their desire to move toward the historical cost method of
    presentation of inventory.

    Audit Response. We accept the proposed alternative actions, and support the
    significant change in policy to move toward historical costs. However, the
    proposed alternative actions represent a long-term solution to improve the financial
    presentation of Inventory, Net. It will be years until those evaluations are
    completed and necessary policy and systems changes implemented, the
    presentation and disclosures about inventory in the financial statements will not be
    reliable.

    B.2. We recommend that the Defense Finance and Accounting Service, with
    support from the Commander, Naval Supply Systems Command, recalculate



                                         13
the ending balance of the allowance for holding gains and losses based on
supplemental guidance that the Under Secretary of Defense (Comptroller) is
to issue in Recommendation B.1. for revenue recognition and realization of
holding gains and losses.

Navy Comments. The NAVSUP concurred in principle, stating agreement that
the ending balance of the allowance for holding gains and losses should be
recalculated to accurately reflect revenue recognition for depot-level-reparable
exchange price sales. However, NAVSUP stated that the recalculation is the
responsibility of DFAS Cleveland Center and could not be accomplished until the
Under Secretary of Defense (Comptroller) issues supplemental guidance on
revenue recognition for depot-level reparables.

DFAS Comments. DFAS deferred to the USD(Comptroller) for all
recommendations on computations in the Cost of Goods Sold model, stating that it
will implement the model as directed.




                                   14
         C. Calculations Affecting the Presentation
            and Disclosure of Inventory
         Journal entries that NAVSUP recorded in the CDB to revalue inventory from
         standard price to latest acquisition cost or net realizable value were
         erroneous. In addition, supplemental information that NAVSUP provided to
         DFAS Cleveland Center for war reserve material excluded certain military
         contingency stock. The journal entries contained errors because the
         NAVSUP revaluation spreadsheets erroneously calculated the estimated cost
         to repair unserviceable inventory and included the estimated cost to repair in-
         transit inventory in the latest acquisition cost adjustment. Also, controls
         were not in place to detect clerical errors. The incomplete information on
         war reserve material occurred because NAVSUP misinterpreted DoD
         guidance. As a result, the reported estimated cost of $1.9 billion to repair
         unserviceable inventory was understated by approximately $209.7 million,
         and the latest acquisition cost adjustment of $346.5 million for in-transit
         inventory was overstated by $81.6 million. Also, the Navy Working Capital
         Fund disclosure of the latest acquisition cost for war reserve material was
         understated by $67.7 million.


NAVSUP Adjustment Calculations
    The NAVSUP revaluation spreadsheets were originally designed by the
    USD(Comptroller), NAVSUP, and DFAS. The spreadsheet calculations were used
    to prepare journal entries, recorded in the CDB, which provided information used
    in the COGS model. However, the spreadsheet calculations produced incorrect
    information for the estimated cost to repair unserviceable inventory and cost to
    repair in-transit inventory. Also, NAVSUP did not establish controls to detect and
    prevent erroneous data entry.

    Estimated Cost to Repair Unserviceable Inventory. NAVSUP developed a
    repair cost ratio using information from the March 31, 1999, Central Secondary
    Item Stratification (CSIS). The CSIS included a forecast of the cost-to-repair
    inventory at both standard price and estimated actual repair price. NAVSUP
    applied the repair cost ratio to the value of unserviceable inventory on
    September 30, 1999, to calculate the estimated cost to repair unserviceable
    inventory. However, the CSIS values used to calculate the repair cost ratio were
    based on the portion of unserviceable inventory that NAVSUP planned to repair
    during FY 2000 rather than the total unserviceable inventory that required repair.
    The objective of the calculation was to estimate the cost to repair all unserviceable
    inventory. Accordingly, NAVSUP should have based the ratio on total
    unserviceable inventory on September 30, 1999. As a result, the NAVSUP
    calculation of the repair cost ratio understated the ratio and, accordingly,
    understated the estimated cost to repair unserviceable inventory by $209.7 million.

    In-Transit Inventory. In-transit inventory consists of serviceable inventory being
    delivered by vendors, serviceable inventory being returned from DoD sources, and
    unserviceable inventory being returned from Navy customers. The spreadsheet
    calculations recognized that a portion of the in-transit inventory was not in
    serviceable condition and separately calculated the estimated cost to repair that


                                         15
    inventory. However, the spreadsheets incorrectly included the estimated cost to
    repair in-transit inventory in the journal entry to reduce inventory from standard
    price to latest acquisition cost instead of the journal entry to reduce unserviceable
    inventory by the estimated cost of repair. As a result, NAVSUP journal entries
    understated the estimated cost to repair unserviceable inventory and overstated the
    difference between standard price and latest acquisition cost by $81.6 million.

    Clerical Errors. NAVSUP personnel made at least six clerical errors during the
    entry of the CSIS data into the revaluation spreadsheets. For example, NAVSUP
    entered $34.8 million as the value of contingency retention stock for shipboard
    repairable items instead of $345.8 million. The errors occurred because NAVSUP
    did not establish controls to detect erroneous data entry. The process of manually
    entering data from the CSIS to the revaluation spreadsheets is subject to human
    error, especially if data entry controls, such as control totals, are not in place. In
    the case of the CSIS data, the clerical errors did not cause the total inventory to be
    misstated, but the categorization of inventory for financial disclosure purposes was
    incorrect. As a result, the errors caused the Navy Working Capital Fund
    disclosures about inventory in Note 8.A. of the financial statements to be distorted
    because the inventory was included in the wrong inventory category.


War Reserve Material
    Note 8.A. of the FY 1999 Navy Working Capital Fund financial statements
    classified inventory into categories of inventory available for resale; inventory held
    in reserve for future sale; inventory held for repair; and excess, obsolete, and
    unserviceable inventory. In addition, Note 8.A. reported that $26.5 million of
    inventory available for resale, valued at latest acquisition cost, was held as war
    reserve material. The NAVSUP calculated the information for the disclosure about
    war reserve material and provided it as supplemental information to DFAS
    Cleveland Center. However, the information that NAVSUP provided understated
    the value of war reserve material by approximately $67.7 million because
    NAVSUP misinterpreted guidance in DoD Regulation 7000.14-R, volume 6B,
    chapter 10.
    As discussed in this finding, NAVSUP spreadsheets developed ratios of inventory
    in different strata based on the CSIS. The ratios were distorted because NAVSUP
    did not implement the guidance for military contingency stocks in the DoD
    Regulation 7000.14-R, volume 11B, chapter 55. DoD Regulation 7000.14-R
    specifies that inventory held in reserve for future sale should consist of stocks
    maintained as economic and contingency retention stock. DoD
    Regulation 4140.1-R, “DoD Material Management Regulation,” May 1998,
    provides that contingency retention stock includes stocks retained for military
    contingency.




                                          16
    The March 31, 1999, CSIS included the following four categories of inventory
    retained for military contingencies (war reserve material):

           •   protected prepositioned war reserve material,

           •   protected other acquisition war reserve material,

           •   balance prepositioned war reserve material, and

           •   balance other acquisition war reserve material.

    The NAVSUP calculations incorrectly classified the first three categories of war
    reserve material as inventory available for resale, and they classified the fourth
    category as war reserve material. The classifications distorted the values of
    inventory available for resale and inventory held in reserve for future sale in the
    notes to the financial statements and understated the disclosure about war reserve
    material by $67.7 million.


Recommendations, Management Comments, and Audit
Response
    C. We recommend that the Commander, Naval Supply Systems Command,
    modify the Naval Supply Systems Command revaluation spreadsheets to:

            1. Calculate the estimated cost to repair unserviceable inventory using
    a ratio based on total unserviceable inventory.

           2. Include the estimated cost to repair unserviceable in-transit
    inventory in the adjustment to record the estimated cost to repair
    unserviceable inventory instead of in the latest acquisition cost adjustment.

           3. Establish controls to detect clerical errors during the manual entry
    of data in the spreadsheets.
            4. Calculate the value of war reserve material for footnote disclosure
    to include all inventory retained for military contingencies.

    Navy Comments. NAVSUP concurred and modified the inventory revaluation
    spreadsheets as recommended to correctly calculate the estimated cost to repair
    unserviceable inventory and to calculate and disclose war reserves using all four
    categories of inventory retained for military contingencies. NAVSUP also
    modified the spreadsheets to provide check totals with necessary links, and
    NAVSUP personnel are verifying data input against source documentation to
    prevent clerical error during manual entry of data.




                                         17
Appendix A. Audit Process

Scope
    Work Performed. During this part of our audit of the FY 1999 Navy Working
    Capital Fund financial statements, we evaluated the valuation and presentation of
    inventory on the financial statements. The FY 1999 Navy Working Capital Fund
    financial statements reported total assets of $23.4 billion and total liabilities of
    $5.5 billion. Net program costs for the Navy Working Capital Fund were
    $710.9 million. Inventory is the most significant asset of the Navy Working
    Capital Fund and comprised $15.2 billion, or about 67 percent of Navy Working
    Capital Fund assets. We conducted separate audit work on the revaluation of
    inventory because prior audit work had rated inventory as a high-risk area for
    misstatement of the financial statements. We included tests of management
    controls considered necessary.

    Limitations to Audit Scope. Our audit work was limited to an examination of
    the Naval Supply System Command’s and DFAS Cleveland Center’s processes,
    procedures, and management controls for revaluing inventory from standard price
    to an estimation of historical cost. We did not review procedures to value
    inventory reported for the Marine Corps. We also limited our review to the
    revaluation of inventory because Navy Working Capital Fund management had
    not executed management control tests of inventory accuracy and completeness
    required for management assertions concerning inventory amounts reported in the
    financial statements.

    Because we did not obtain the final version of the financial statements in a timely
    manner, we were unable to recommend adjustments to the FY 1999 Navy
    Working Capital Fund financial statements. Therefore, the recommendations in
    this report should be considered in preparing the FY 2000 financial statements of
    the Navy Working Capital Fund.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act,
    the Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measures:

           FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the force
           by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-2)

           FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
           and information management. (01-DoD-2.5)

           FY 2001 Performance Measure 2.5.1: Reduce the number of
           noncompliant accounting and finance systems. (01-DoD-2.5.1.)


                                         18
           FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions on
           financial statements. (01-DoD-2.5.2.)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and goal.

           Financial Management Area. Objective: Strengthen internal controls.
           Goal: Improve compliance with the Federal Managers’ Financial
           Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Financial Management high-risk area.


Methodology
    Our review of the revaluation of inventory from standard price to an estimation of
    historical price covered the processes that NAVSUP and DFAS Cleveland Center
    used to execute the revaluation. NAVSUP entered data from the March 31, 1999,
    Central Secondary Item Stratification and trial balance data from the CDB into
    excel spreadsheets to calculate adjustments recorded in the CDB. The DFAS
    Cleveland Center executed the revaluation in the DFAS COGS model designed
    by the USD(Comptroller) and DFAS. The COGS model is a series of excel
    spreadsheets used to revalue inventory and calculate cost of goods sold for the
    financial statements. The COGS revaluation process involves a series of
    calculations that are recorded in journal entries. Our review focused on the
    accuracy and propriety of the data used in the NAVSUP and DFAS calculations.

    Computer-Processed Data. Using the Uniform Inventory Control Point system,
    NAVSUP produced Central Secondary Item Stratification reports showing the
    stratification of Navy Working Capital Fund inventory into different categories.
    We did not evaluate the stratification process, nor did we evaluate the general or
    application controls over the Uniform Inventory Control Point system. We
    concluded that the data were sufficiently reliable to meet the audit objective. Not
    evaluating the controls did not affect the results of the audit.

    Audit Type, Period, and Standards. We performed this financial related audit
    from March 24, 1999, through March 15, 2000, in accordance with auditing
    standards issued by the Comptroller General of the United States, as implemented
    by the Inspector General, DoD.

    Contacts During the Audit. We visited or contacted individuals and
    organizations in DoD. Further details are available on request.




                                        19
Management Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    requires DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the management controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of the DFAS Cleveland Center management controls over the Cost of
    Goods Sold model. The audit also reviewed management's self-evaluation of the
    applicable management controls

    Adequacy of Management Controls. We identified material management
    control weaknesses as defined by DoD Instruction 5010.40, “Management
    Control (MC) Program Procedures,” August 28, 1996. Management controls at
    DFAS Cleveland Center were not adequate to ensure that the presentation and
    disclosures about inventory in the FY 1999 Navy Working Capital Fund financial
    statements were reasonable. Recommendations A.2. and A.4., if implemented,
    will improve the presentation and disclosure of inventory in the financial
    statements. A copy of this report will be provided to the senior official in charge
    of management controls for DFAS Cleveland Center.

    Adequacy of Management's Self-Evaluation. Managers at DFAS Cleveland
    Center identified Navy Working Capital Fund supply management as an
    assessable unit. One of the management controls identified was the area of desk
    operational procedures for the COGS model. However, DFAS Cleveland
    Center’s latest assessment of Supply Management, published in May 1998,
    indicated that the desk operating procedures were adequate. The assessment did
    not identify the deficiencies discussed in this report.


Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have conducted
    multiple reviews related to financial statement issues. General Accounting Office
    reports can be accessed on the Internet at http://www.gao.gov. Inspector General,
    DoD, reports can be accessed on the Internet at
    http://www.dodig.osd.mil/audit/reports.

    The Inspector General, DoD, issued three other reports on the FY 1999 Navy
    Working Capital Fund financial statements:

       •   Report No. D-2000-144, “Compiling and Reporting FY 1999 Department
           of the Navy Working Capital Fund Intragovernmental Transactions,”
           June 9, 2000

       •   Report No. D-2000-140, “Compilation of the FY 1999 Department of the
           Navy Working Capital Fund Financial Statements,” June 7, 2000

       •   Report No. D-2000-082, “Inspector General, DoD, Oversight of the
           Naval Audit Service Audit of the FY 1999 Department of the Navy
           Working Capital Fund Financial Statements,” February 14, 2000


                                        20
The Naval Audit Service also issued a report on inventory valuation as part of its FY1998
audit coverage, as discussed in this audit report.

   •   NAS Report No. N2000-0014, “Department of the Navy Working Capital Fund
       Inventory Records and Valuation,” December 30, 1999.




                                           21
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
      Director, Accounting Policy
   Deputy Comptroller (Program/Budget)
Director, Defense Logistics Studies Information Exchange

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Supply Systems Command

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Cleveland Center
Director, Defense Logistics Agency

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center




                                          22
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform




                                          23
24
Under Secretary of Defense (Comptroller)
Comments




                   25
26
27
Department of the Navy Comments




                      28
Final Report
 Reference




 Revised




               29
30
31
Defense Finance and Accounting Service
Comments




                   32
33
34
     Final Report
       Reference



     Revised




35
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report.

F. Jay Lane
Salvatore D. Guli
Brian M. Flynn
Marvin L. Peek
Joel K. Chaney
Gregory M. Mennetti
Carrie A. Wade
Noelle Blank
